1'   MEMORANDUM

'    Date: December 15, 1999
I'




             In September 1995, OIG received notice that DOD had suspende
     because their accounting system was not adequate. NSF suspended
     a $2 14,445 award.

            We coordinated with DCAA and Army CID who were
                                 Based on our investigation, we found tha
                               ling $50,884, and referred this matter to Deoartrnent of Justice.
                                                                                          -.---
     Department of Justice decided to wait until
     completed. In August 1996, NSF terminated NSF
     funds not obtained -b

             Anny completed their review in March 1999. In September 1999, Department of
     Justice declined prosecution. We notified NSF of the Department of Justice decision to
     decline prosecution and the Office of General Counsel stated that they would consider if
     additional administrative recovery of funds were possible.

            Case Closed.
                                                                                                   1I
